Case: 19-1782

Filed: 06/12/2020

Document: 00713627235

Pages: 1

ISmfefr States Court of Appeals
For the Seventh Circuit
Chicago, Illinois 60604

CERTIFIED COPY

May 21, 2020
Before
WILLIAM J. BAUER, Circuit Judge

rfA^5|i«e<^KBa#^y

MICHAEL Y. SCUDDER, Circuit Judge

No. 19-1782
ROBERT K. RYMER,
Petitioner-Appellant,
v.
BRIAN FOSTER, Warden,
Respondent-Appellee.

Appeal from the United States District
Court for the Eastern District of
Wisconsin.
No. 2:18-cv-1347
William C. Griesbach,

Judge.
ORDER
Petitioner-appellant filed a petition for rehearing and rehearing en banc on
May 5, 2020. No judge in regular active service has requested a vote on the petition for
rehearing en banc, and all members of the original panel have voted to deny panel
rehearing. The petition for rehearing and rehearing en banc is therefore DENIED.

Case 2:18-cv-01347-WCG Filed 06/12/20 Page 1 of 1 Document 44-1

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF WISCONSIN
ROBERT K. RYMER,
Petitioner,
v.

Case No. 18-C-1347

BRIAN FOSTER,
Respondent.

DECISION AND ORDER

Petitioner Robert K. Rymer, who is currently incarcerated at Waupun Correctional
Institution, filed this petition for writ of habeas corpus pursuant to 28 U.S.C. § 2254, asserting that
his state court conviction and sentence were imposed in violation of the Constitution. Rymer was
convicted in Winnebago County Circuit Court of first-degree intentional homicide and attempted
first-degree intentional homicide. He was sentenced to forty years of imprisonment for first-degree
intentional homicide and a life sentence for attempted first-degree intentional homicide, to run
consecutively. On December 13, 2018, Respondent filed a motion to dismiss the petition on the
ground that it is untimely. For the reasons below, Respondent’s motion will be granted and the case
dismissed.
The Antiterrorism and Effective Death Penalty Act (AEDPA) establishes a one-year statute
of limitations for filing a habeas petition in federal court. A state prisoner seeking federal relief
under 28 U.S.C. § 2254 must generally file his petition within one year of “the date on which the

Case 2:18-cv-01347-WCG Filed 03/27/19 Page lot 4 Document 32

judgment became final by the conclusion of direct review or the expiration of the time for seeking
such review.” 28 U.S.C. § 2244(d)(1)(A).
Rymer was convicted in July 1998, and he subsequently pursued a direct appeal of his
convictions. The Wisconsin Court of Appeals rejected Rymer’s numerous claims and affirmed his
convictions on December 20, 2000. The Wisconsin Supreme Court denied Rymer’s petition for
review on February 7, 2001. Rymer did not file a certiorari petition in the United States Supreme
Court. As a result, the one-year limitation period started running on May 9,2001. Rymer therefore
had one year, until May 9, 2002, to file a federal habeas petition challenging his conviction and
confinement. Rymer did not file his federal habeas petition until August 31, 2018, well after the
one-year limitation period had run. As a result, Rymer’s petition is untimely.
Although the one-year period for filing habeas petitions can be tolled in two instances,
neither applies here. First, the limitations period is tolled for the “time during which a properly filed
application for State post-conviction or other collateral review with respect to the pertinent
judgment or claim is pending.” 28 U.S.C. § 2244(d)(2). In this case, Rymer filed various motions
in state court: an October 25,2002 motion for post-conviction relief, a 2013 motion for a Machner
hearing, and a 2014 writ of coram nobis. But those motions were filed after the one-year statute of
limitations had expired. As such, tolling pursuant to § 2244(d)(2) is not applicable.
A court may also equitably toll the limitations period. “[Ejquitable tolling is granted
sparingly only when extraordinary circumstances far beyond the litigant’s control prevented timely
filing.” Simms v. Acevedo, 595 F.3d 774, 781 (7th Cir. 2010) (citation omitted). To establish
“extraordinary circumstances,” a petitioner must show “(1) that he has been pursuing his rights
diligently, and (2) that some extraordinary circumstance stood in his way and prevented timely
2

Case 2:18-cv-01347-WCG Filed 03/27/19 Page 2 of 4 Document 32

filing.” Holland v. Florida, 560 U.S. 631, 649 (2010) (internal quotation marks and citation
omitted). Rymer has satisfied neither requirement. Nothing in the record permits the court to
conclude that Rymer faced any impairment in filing the petition or that the factual predicates of his
claims are newly discovered. While Rymer argues the merits of his claims in his response brief, he
fails to state why he could not bring his claims earlier. The court therefore cannot conclude that the
circumstances of this case warrant applying the doctrine of equitable tolling.
Rymer allowed the one-year statute of limitations for federal habeas review to lapse. The
circumstances of this case do not allow him to take advantage of statutory or equitable tolling.
Accordingly, Rymer’s petition is time-barred and must be dismissed. Respondent’s motion to
dismiss (ECF No. 14) is therefore GRANTED.
Under Rule 11 (a) of the Rules Governing Section 2254 Cases, the court must consider
whether to issue a certificate of appealability. A court may issue a certificate of appealability only
if the applicant makes a substantial showing of the denial of a constitutional right. See 28 U.S.C.
§ 2253(c)(2). The standard for making a “substantial showing” is whether “reasonable jurists could
debate whether (or, for that matter, agree that) the petition should have been resolved in a different
manner or that the issues presented were adequate to deserve encouragement to proceed further.”
Slack v. McDaniel, 529 U.S. 473, 484 (2000) (internal quotation marks omitted). The court
concludes that its decision is neither incorrect nor debatable among jurists of reason. Accordingly,
a certificate of appealability will be denied.
The Clerk is directed to enter judgment denying the petition as untimely and dismissing the
action. A dissatisfied party may appeal this court’s decision to the Court of Appeals for the Seventh
Circuit by filing in this court a notice of appeal within 30 days of the entry of judgment. See Fed.
3

Case 2:18-cv-01347-WCG Filed 03/27/19 Page 3 of 4 Document 32

R. App. P. 3, 4. In the event Rymer decides to appeal, he should also request that the court of
appeals issue a certificate of appealability. Fed. R. App. P. 22(b).
SO ORDERED this 27th day of March, 2019.
s/ William C. Griesbach
William C. Griesbach, Chief Judge
United States District Court

4

Case 2:18-cv-01347-WCG Filed 03/27/19 Page 4 of 4 Document 32

r

V

l

UNITED STATES COURT OF APPEALS FOR THE SEVENTH CIRCUIT
•«
•.V

.1

Everett McKinley Dirksen United States Courthouse
Room 2722 - 219 S: Dearborn Street
j
Chicago, Illinois 60604

•

Office of the Clerk
Phone: (312) 435-5850
www.ca7.uscourts.gov

'

ORDER
July 10,2020
LD.,—f-7-___ /O.

No. 20-2141

IN RE:
ROBERT K. RYMER; “ :
Petitioner

Petition for Writ of Mandamus
District Court No: 2:18-cv-01347-WCG
District Judge William C. Griesb.ach

r-.

The following are before the court:
1. PETITION FOR WRIT OF MANDAMUS, filed on June 29, 2020, by the pro se
petitioner.
2. MOTION FOR OBJECTION, filed on June 29, 2020, by the pro se petitioner.
Petitioner Robert Rymer sought a certificate of appealability of the district court's denial
of his petition under 28 U.S.C. § 2244J and this court denied his request and his
subsequent petition for rehearing. See Rymer v. Foster, No. 19-1782 (7th Cir. Apr. 17,
2020). He then filed this petition, in which he appears to contest our denial of his request
for a certificate of appealability. Although Rymer has filed a separate petition, this court
interprets his filing to be a subsequent challenge to our ruling in his previous appeal.
IT IS ORDERED that the motion for Judge Bauer's recusal is DENIED. See In re
Sherwin-Williams Co., 607 F.3d 474,477-78 (7th Cir. 2010). IT IS FURTHER ORDERED
that the petition is DENIED. Further repetitive documents requesting reconsideration
will be returned unfiled under Operating Procedure 1(c)(8).
form name: c7_Order_BTC(form ID: 178)

RECEIVED
MAR 1 0 2021
OFFICE OF THE CLERK
SUPREME COURT, U.S.

